GOVERNANCE: Opportunities Exist to Improve
the Travel Card Program and Reduce Risks




                  Audit Report No. OIG-A-2014-005 | April 18, 2014
This page intentionally left blank.
    NATIONAL RAILROAD
    PASSENGER CORPORATION


                              REPORT HIGHLIGHTS
Why We Did This Review                 GOVERNANCE: OPPORTUNITIES EXIST TO IMPROVE THE TRAVEL
                                          CARD PROGRAM AND REDUCE RISKS (Audit Report OIG-A-
Travel cards are company credit                       2014-005, April 18, 2014)
cards issued to employees for
business travel. However, travel   What We Found
cards are an inherently risky      We identified opportunities to improve the travel card  program’s  
method for purchasing because      controls and cost-effectiveness. Specific control weaknesses
of the highly decentralized        identified include the following:
nature of the transactions, and        Travel cards were often misused. In 2012, cardholders charged
the potential for misuse. The          $469,000 of the total $1.3 million (36 percent) on potential
travel card program costs the          personal expenses, a policy violation.
company about $130,000 to              Employees defaulted on about $16,000 in card balances,
operate. Since April 2012, the         including some personal expenses of the cardholders. None of
Travel Services group has              this money has been recovered, and the bank absorbed the loss.
improved internal controls over        Inaccuracies in cardholder records and weak oversight resulted
travel cards; however, Finance         in card accounts remaining active for 22 terminated employees
officials remained concerned           and other anomalies.
about the adequacy of these        More important, the travel card program is not cost-effective
controls.                          because it is significantly under-enrolled and under-utilized.
We initiated a systematic          Amtrak does not require the use of travel cards for business trips;
review using Audit Command         as a result, only 419 (33 percent) of employees with multiple
Language (ACL), a specialized      business trips had travel cards. Also, these cardholders charged
data analysis software tool, to    only 33 percent of their total business travel expenses to the travel
analyze 100 percent of travel      cards. As a result of delayed payments and underutilization, the
card purchases for the 12-         corporation received a rebate of only $7,675 of $1.3 million (0.59
month period ending December       percent) for 2012.
2012.                              Our review of best practices showed that many organizations
Our objective was to assess the    address control and cost-effectiveness issues by shifting hotel and
effectiveness and efficiency of    car rental bookings from individual cards to centralized corporate
the travel card program.           charge cards. Replacing individual cards with centralized corporate
                                   card will increase rebates and reduce operating cost and risks.
The full report is           Corrective Actions
atwww.amtrakoig.gov/reading-
                             We recommend and the Chief Financial Officer agreed to evaluate
room
                             travel card program alternatives, recover unpaid balances, and
                             monitor employee travel expenses using data analytics.
This page intentionally left blank.
    NATIONAL RAILROAD
    PASSENGER CORPORATION


Memorandum
To:             Gerald Sokol, Jr.
                Chief Financial Officer (CFO)

From:           David R. Warren
                Assistant Inspector General, Audits

Date:           April 18, 2014

Subject:        Governance: Opportunities Exist to Improve the Travel Card Program and Reduce
                Risks (Audit Report OIG-A-2014-005)

This report provides the results of our review of the effectiveness and efficiency of the travel
card program. The Travel Services group in the Finance department is primarily responsible
for defining travel card policy, developing procedures, and administering the travel card
program. Amtrak’s  Corporate Travel Charge Card policy establishes procedures to cover
the reimbursable business travel expenses of eligible employees during travel. When
effective and well controlled, travel cards are a convenient alternative for employees who do
not have personal credit cards or do not want to use them for business travel expenses.
Moreover, the use of the cards helps reduce  transaction-­‐‑processing  costs for the
organization.

Travel cards are individual credit cards issued by US Bank. They are governed by the GSA
SmartPay1 program; therefore, Amtrak is expected to follow the requirements of the General
Services Administration (GSA). In calendar year (CY) 2012, Amtrak cardholders conducted
approximately 17,000 transactions to procure about $1.3 million of goods and services.

Travel cards are an inherently risky method for purchasing because of the highly
decentralized nature of the transactions, the number of cardholders and their
creditworthiness, and the potential for misuse. Organizations using travel cards establish
controls to help ensure that employees use these cards appropriately. Adequate internal
controls serve as the first line of defense in preventing fraud. Before April 2012,


1GSA SmartPay is a GSA government payment program that manages master contracts through which
agencies and organizations can obtain purchase, travel, fleet, and integrated cards.
                                                                                              2

                             Amtrak Office of Inspector General
    Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                       Audit Report OIG-A-2014-005, April 18, 2014


management of the Travel Services group did not properly maintain records or actively
enforce the travel card policy. Current management has focused on policy enforcement and
has made significant progress reducing risks. Since April 2012, management took a number
of actions to improve the controls—such as tightening the merchant category codes that
restrict cardholders to purchase only certain types of goods and services, and closer
monitoring of charges. However, Finance officials remained concerned about the adequacy
of internal controls over the use of travel cards.

After discussion with officials from the Finance department, we decided to conduct a
systematic review of travel card use and related controls. To accomplish our objectives, we
relied heavily on Audit Command Language (ACL), a specialized data analysis software
tool. Using the tool, we analyzed 100 percent of travel card purchases for CY 2012 to test
employee compliance with controls and to identify control weaknesses. We will provide the
Finance department the ACL testing tools we developed for this review. For details on our
scope and methodology, see Appendix A.

The reporting objective of this audit was to assess the effectiveness and efficiency of the
travel card program.


OPPORTUNITIES  EXIST  TO  IMPROVE  THE  TRAVEL  CARD  PROGRAM’S  
CONTROLS AND COST-EFFECTIVENESS

Since April 2012, the Travel Services group has improved its policies and procedures for
controlling the use of travel cards; however, further improvements can be made. More
important, the travel card program is not cost-effective because it is significantly under-
enrolled, under-utilized, and often misused. The following summarizes the results of our
analysis of the cardholder transactions in CY 2012:

       Misuse. Employees often use travel cards for their personal expenses. Amtrak’s  
       Corporate Travel Charge Card policy (P/I 8.36.1) requires that cardholders charge
       only business travel expenses on their cards; however, the Travel Services group
       finds it challenging to enforce this policy because of a lack of cooperation from
       managers. Our review found that 382 cardholders used their travel cards to charge
       $469,000 of the total $1.3 million (36 percent) in potential personal expenses.
                                                                                                        3

                              Amtrak Office of Inspector General
     Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                        Audit Report OIG-A-2014-005, April 18, 2014


       Although most personal expenses were travel-related—such as hotels, airline tickets
       and meals—we also identified about $20,000 in non-travel related expenses, such as
       auto services, a household move, and a vacation package.
       Defaults. If cardholder balances are not paid in full within six months, US Bank
       writes them off as defaulted amounts and takes the loss. In 2012, the total defaulted
       amount was about $16,000. If these default amounts increase, the corporation would
       be exposed to lower rebates and an adverse relationship with the bank. These
       defaulted balances included some personal expenses. None of this money has been
       recovered because there is no formal process to do so.
       Issues of data quality. The Travel Services group periodically reviews cardholder
       transactions, but the review is manual, ad hoc, and prone to errors. Our analytic tests
       found a few data quality issues and underlying weak oversight, such as travel card
       accounts not being deactivated for 22 terminated employees, 143 incorrect cost-center
       assignments, and 19 incorrect employee numbers. These issues can make cancellation
       of cards difficult when employees separate. Also, compliance with accurate record-
       keeping standards under the new GSA control requirements2 will be difficult. During
       this audit, we brought these three issues to management’s attention so timely
       corrective actions could be taken.

The travel card program costs Amtrak about $130,000 a year, but the program is not cost-
effective because it is significantly under-enrolled and under-utilized. In 2012, delayed
payments and underutilization resulted in a significantly lower rebate of $7,675 of $1.3
million (0.59 percent). Also, many cardholders use their personal cards for business travel
for convenience or to earn rewards, which further reduces the amount of potential rebates.

       Underutilization. Most employees are not enrolled in the travel card program
       because Amtrak does not require the use of travel cards for trips. Only 419 of the
       1,273 employees (33 percent) with multiple business trips in 2012 had obtained the
       travel cards. Further, these 419 employees charged only 33 percent of their total



2GSA SmartPay® Smart Bulletin No. 021, issued on September 9, 2013, requires Amtrak to implement controls
such as periodic justification for card renewal and training re-certification.
                                                                                                              4

                                 Amtrak Office of Inspector General
        Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                           Audit Report OIG-A-2014-005, April 18, 2014


          business travel expenses to their cards, well below the 75 percent utilization rate
          achieved by many companies running successful travel card programs.
          Delayed payments. The Travel Charge Card policy requires that employees pay
          their card balances in full each month. Amtrak reimburses employees for their
          business-related card charges via expense reports. US Bank sets Amtrak’s  rebate  rate,
          which ranges from 0.38 percent to 0.98 percent depending on the employee’s days-to-
          payment history. Delinquent card balances significantly reduce the rebate.

Travel Card Best Practices

Our review of best practices showed that many organizations address control and cost-
effectiveness issues by shifting hotel and car rental bookings from individual cards to
centralized corporate charge cards. Employees can use their personal credit cards for meals
and incidentals. Currently, employees do not need individual travel cards to make airline
reservations using the online eTrax Worldspan catalog.3 The company pays the airline
charges directly to Worldspan using a corporate charge card, but does not take the same
approach for hotel and car rental expenses. Using that direct approach for hotel and car
rental would result in a number of benefits:

          increasing rebates by about $41,000 annually due to a higher rebate rate of 1.2 percent
          to 1.8 percent
          maximizing state and local tax exemption
          improving bargaining power to negotiate lower rates with hotels and car rentals
          ensuring that the types of hotel rooms and cars booked are consistent with policy
          eliminating individual travel cards, which would reduce the risk of default




 3   eTrax Worldspan is the electronic travel booking system that Amtrak uses for airlines, hotels, and car
 rentals.
                                                                                             5

                             Amtrak Office of Inspector General
    Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                       Audit Report OIG-A-2014-005, April 18, 2014


RECOMMENDATIONS

We recommend that the Chief Financial Officer direct the Travel Services group to take the
following actions:

   1. Evaluate travel card program alternatives’ cost and benefits to include the best
      practices discussed in this report.
   2. Recover unpaid balances from delinquent cardholders.
   3. Monitor employee travel expenses using data analytics for additional improvement
      opportunities.


MANAGEMENT COMMENTS AND OIG ANALYSIS

In his response to the draft report, the Chief Financial Officer agreed with our
recommendations and provided corrective actions and implementation dates to address
them. The proposed corrective actions address the intent of our recommendations. For his
complete response, see Appendix B.
                                                                                                 6

                              Amtrak Office of Inspector General
     Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                        Audit Report OIG-A-2014-005, April 18, 2014


                                          Appendix A

                             SCOPE AND METHODOLOGY

The scope of our work included reviewing Amtrak’s  Corporate  Travel  Charge  Card  policy  
(P/I 8.36.1), the travel card manual, and the US Bank contract to identify the key controls
implemented. We also obtained cardholder information as of July 2013, and travel card
transaction data from US Bank for November 2011 through August 2013 (30,964 transactions
valued at approximately $2.2 million for 839 cards). We extracted names of active
employees from master data and matched them against US Bank cardholder data. We also
compared  employees’  travel  authorizations  and  expense  reports  submitted  in  Amtrak’s  
procurement system, eTrax, against travel card charges. Using ACL, we performed several
data analytic tests to identify exceptions.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.

Our methodological approach was to identify non-compliance with travel card policy by
performing various data analytic tests on travel card usage. We also identified the potential
adverse consequences of the identified exceptions (noncompliance and control weaknesses),
to the extent that they were readily discernible. We identified causes only when we could
show that policy and procedures were not being followed or when we found an absence of
policy and procedures.


Internal Controls

In conducting the audit, we assessed the adequacy of internal controls by performing tests
of user compliance with the policies in multiple areas discussed in our scope and
methodology.
                                                                                                           7

                              Amtrak Office of Inspector General
     Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                        Audit Report OIG-A-2014-005, April 18, 2014


Use of Computer-Processed Data

To  achieve  our  objective,  we  used  computer-­‐‑processed  data  from  the  service  provider  and  
Amtrak’s  procurement  system, eTrax. We loaded this data into ACL and developed
automated programs for our tests. To validate the results of our analysis, we selected a few
exceptions and compared them with the source data to ensure that automated programs
were producing accurate results based on the established test criteria.


Prior Reports

We reviewed the following audit report for potential relevance to our work:

   Amtrak OIG 104-2004, eTrax Application Review, 2/23/2006, concluded that Amtrak’s  eTrax  
   interface with Worldspan did not provide for an automated reconciliation process to
   validate the charges for airline reservations. Every month, the Director of Travel Support
   Services manually reconciled the Detailed Ticket Report provided by Worldspan with
   the Credit Card Statement from American Express, and made the journal entry to
   allocate  all  ticket  charges  to  the  appropriate  cost  centers  in  Amtrak’s  financial  system.  In
   this report, we recommended that Travel Support Services and eTrax management
   implement the Procurement Charge Card Reconciliation process for the charges from the
   Worldspan catalog.
                                                                                      8

                         Amtrak Office of Inspector General
Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                   Audit Report OIG-A-2014-005, April 18, 2014


                                   Appendix B

            COMMENTS  FROM  AMTRAK’S  MANAGEMENT
                                                                                      9

                         Amtrak Office of Inspector General
Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                   Audit Report OIG-A-2014-005, April 18, 2014
                                                                                      10

                         Amtrak Office of Inspector General
Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                   Audit Report OIG-A-2014-005, April 18, 2014
                                                                                            11

                               Amtrak Office of Inspector General
      Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                         Audit Report OIG-A-2014-005, April 18, 2014


                                         Appendix C

                                   ABBREVIATIONS


ACL           Audit Command Language

CY            Calendar Year

GSA           General Services Administration

OIG           Office of Inspector General
                                                                                          12

                             Amtrak Office of Inspector General
    Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                       Audit Report OIG-A-2014-005, April 18, 2014


                                        Appendix D

                             OIG TEAM MEMBERS


Vipul Doshi        Senior Director, Audits

Vijay Chheda       Audit Manager

Michael Baker      Senior Auditor, IT

Jim Tarantino      Consultant

Kim Tolliver       Consultant
                                                                                         13

                           Amtrak Office of Inspector General
  Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
                     Audit Report OIG-A-2014-005, April 18, 2014



                OIG MISSION AND CONTACT INFORMATION

Amtrak  OIG’s  Mission         The  Amtrak  OIG’s  mission  is  to  provide  independent,  
                               objective  oversight  of  Amtrak’s  programs  and  operations  
                               through audits, inspections, evaluations, and investigations
                               focused on recommending improvements to Amtrak’s  
                               economy, efficiency, and effectiveness; preventing and
                               detecting fraud, waste, and abuse; and providing Congress,
                               Amtrak  management,  and  Amtrak’s  Board  of  Directors  
                               with timely information about problems and deficiencies
                               relating  to  Amtrak’s  programs and operations.


Obtaining Copies of OIG        Available at our website: www.amtrakoig.gov.
Reports and Testimony



To Report Fraud, Waste,        Report suspicious or illegal activities to the OIG Hotline
or Abuse                       (you can remain anonymous):

                               Web:      www.amtrakoig.gov/hotline
                               Phone:    800-468-5469

Contact Information            David R. Warren
                               Assistant Inspector General, Audits

                               Mail:    Amtrak OIG
                                        10 G Street NE, 3W-300
                                        Washington D.C., 20002
                               Phone:   202-906-4600
                               Email:   david.warren@amtrakoig.gov
